Audit Report




OIG-13-052
RESTORE ACT: Treasury Needs to Establish Procedures to
Expend and Invest Gulf Coast Restoration Trust Fund Monies
September 24, 2013




Office of
Inspector General
Department of the Treasury
Contents

Audit Report .................................................................................... 1

   Background .............................................................................................   2

       Gulf Coast Restoration Trust Fund ..........................................................           2

       Objective, Scope, and Methodology ........................................................             3

   Finding - Treasury Lacks Necessary Procedures to Expend Amounts from
   the Gulf Coast Restoration Trust Fund and an Investment Strategy ...................                       4

       Procedures to Expend Amounts from the Trust Fund ..................................                    4

       Investing Deposits Received by the Trust Fund..........................................                5

   Recommendations.....................................................................................       6

Appendices

   Appendix 1:         Management Response ........................................................ 9
   Appendix 2:         Major Contributors to This Report.......................................... 10
   Appendix 3:         Report Distribution .............................................................. 11

Abbreviations

   BFS                 Bureau of the Fiscal Service
   NOAA                National Oceanic and Atmospheric Administration
   RESTORE Act         Resources and Ecosystems Sustainability, Tourist Opportunities,
                       and Revived Economies of the Gulf Coast States Act of 2012
   U.S.C.              United States Code




                       Treasury Needs to Establish Procedures to Expend and Invest                       Page i
                       Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
         This Page Intentionally Left Blank.




Treasury Needs to Establish Procedures to Expend and Invest   Page ii
Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                      September 24, 2013

                      Richard L. Gregg
                      Fiscal Assistant Secretary

                      This report presents the results of our audit work related to the
                      Department of the Treasury’s (Treasury) establishment of the Gulf
                      Coast Restoration Trust Fund (Trust Fund) as required by the
                      Resources and Ecosystems Sustainability, Tourist Opportunities,
                      and Revived Economies of the Gulf Coast States Act of 2012
                      (RESTORE Act).1 Our objective was to determine and assess the
                      progress made toward establishing the Trust Fund, to include the
                      requisite infrastructure and assignment of responsibilities as well as
                      the related accounting policies and procedures.

                      Among his responsibilities, the Secretary of the Treasury, in
                      consultation with the Secretary of Commerce and the Secretary of
                      the Interior, was required to establish procedures for depositing
                      amounts in and expending amounts from the Trust Fund. Under the
                      RESTORE Act, procedures were to be established (i.e., issued in
                      final) by January 2, 2013. In April 2013, we reported that Treasury
                      missed its statutory deadline to establish the procedures. 2

                      In brief, we found that Treasury’s Bureau of the Fiscal Service (BFS)
                      established the Trust Fund and was able to receive the first deposit in
                      March 2013. However, as of June 12, 2013, Treasury had not
                      established procedures necessary to expend amounts from the Trust
                      Fund, or developed an investment strategy that takes into account
                      projected outlays from the Trust Fund. According to a Treasury

1
 Public Law 112-141, 126 Stat. 588-607 (July 6, 2012)
2
 Restore Act: Treasury Missed Its Statutory Deadline for Establishing Procedures Governing RESTORE
Act Programs and Activities, OIG-13-038 (Apr. 17, 2013)

                      Treasury Needs to Establish Procedures to Expend and Invest             Page 1
                      Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
                       official, Treasury planned to issue those procedures in the form of
                       regulations in September or October 2013. On September 6, 2013,
                       subsequent to the completion of our audit fieldwork, Treasury
                       published the draft procedures in the Federal Register, in the form of
                       proposed regulations, for a 60-day public comment period.3 We are
                       recommending, and cannot emphasize strongly enough the need for,
                       your office to take all necessary actions to expedite the issuance of
                       the RESTORE Act regulations and develop a Trust Fund investment
                       strategy.

                       In a written response, Treasury management provided a summary
                       of actions taken and planned that meet the intent of our three
                       recommendations presented in this report. The management
                       response is included as appendix 1.

Background
                       Gulf Coast Restoration Trust Fund

                       The RESTORE Act established the Trust Fund within Treasury to
                       administer funds for the environmental and economic restoration of
                       the Gulf Coast region4 in response to the 2010 Deepwater Horizon
                       oil spill. Deposits into the Trust Fund will be comprised of
                       80 percent of all civil and administrative penalties paid after
                       July 6, 2012, pursuant to a court order or negotiated settlement
                       under the Federal Water Pollution Control Act. 5 While the total
                       amount that will eventually be deposited into the Trust Fund is
                       unknown at this time, the Trust Fund received a deposit of




3
  78 FR 54801, Gulf Coast Restoration Trust Fund
4
  As defined in the RESTORE Act, the term Gulf Coast region means (a) in the Gulf Coast States
(Alabama, Florida, Louisiana, Mississippi, and Texas), the coastal zones that border the Gulf of Mexico;
(b) any adjacent land, water, and watersheds that are within 25 miles of the coastal zones of the Gulf
Coast States; and (c) all federal waters in the Gulf of Mexico.
5
  Public Law 92-500 (as amended)

                       Treasury Needs to Establish Procedures to Expend and Invest                 Page 2
                       Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
                       approximately $323 million as a result of a settlement with the
                       Transocean defendants.6

                       The RESTORE Act allocates the money from the Trust Fund into
                       five Components: (1) Direct, (2) Council-selected Restoration,
                       (3) Spill Impact, (4) Centers of Excellence Research Grants
                       Program, and (5) Gulf Coast Ecosystem Restoration Science
                       Program. Treasury is responsible for administering the Direct
                       Component and the Centers of Excellence Research Grants
                       Program Component. The Gulf Coast Ecosystem Restoration
                       Council (Council)7 is responsible for administering the
                       Council-selected Restoration Component and the Spill Impact
                       Component. The National Oceanic and Atmospheric Administration
                       (NOAA) is responsible for administering the Gulf Coast Ecosystem
                       Restoration Science Program Component.

                       Objective, Scope, and Methodology

                       Our objective was to determine and assess the progress made
                       toward establishing the Trust Fund, to include the requisite
                       infrastructure and assignment of responsibilities as well as the
                       related accounting policies and procedures. In performing our audit
                       work, we reviewed (1) the RESTORE Act, (2) Treasury’s procedure
                       for trust funds titled The Process of Investment Fund
                       Administration within the Department of the Treasury (Nov. 2000),
                       (3) Treasury’s draft Gulf Coast Restoration Trust Fund Concept of
                       Operations (Mar. 18, 2013), and (4) 31 U.S.C. §9702, Investment
                       of Trust Funds. We interviewed BFS officials responsible for the
                       Trust Fund and reviewed documentation to support the


6
  On January 3, 2013, the Department of Justice lodged a proposed consent decree with the
Transocean defendants (Transocean Deepwater Inc., Transocean Offshore Deepwater Drilling Inc.,
Transocean Holdings LLC, and Triton Asset Leasing GmbH) in the U.S. District Court, Eastern District of
Louisiana. Under the proposed decree, among other things, the Transocean defendants will pay a
$1 billion civil penalty plus interest under the Federal Water Pollution Control Act. The civil settlement
was approved on February 19, 2013, and the first installment of approximately $323 million was
deposited into the Trust Fund on March 21, 2013.
7
  Section 1603 of the RESTORE Act created the Council comprised of the Secretaries of the Interior,
Army, Commerce, and Agriculture, the Administrator of the Environmental Protection Agency, the head
of the department housing the Coast Guard (currently the Secretary of the Department of Homeland
Security), and the governors of Alabama, Florida, Louisiana, Mississippi, and Texas. The Secretary of
Commerce was selected by member states and appointed by the President as the Chairperson of the
Council.

                       Treasury Needs to Establish Procedures to Expend and Invest                  Page 3
                       Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
          establishment of the Trust Fund and the deposit of funds into the
          account. We also met with Department of Commerce officials to
          obtain their perspectives on the status of the establishment of the
          Trust Fund as it relates to the Council’s role in administering the
          Council-selected Restoration Component and Spill Impact
          Component. We performed our fieldwork from March 2013 through
          June 2013.

          We conducted this performance audit in accordance with generally
          accepted government auditing standards. Those standards require
          that we plan and perform the audit to obtain sufficient, appropriate
          evidence to provide a reasonable basis for our findings and
          conclusions based on our audit objectives. We believe that the
          evidence obtained provides a reasonable basis for our findings and
          conclusions based on our audit objectives.

Finding    Treasury Lacks Necessary Procedures to Expend
           Amounts from the Gulf Coast Restoration Trust
           Fund and an Investment Strategy

          Procedures to Expend Amounts from the Trust Fund

          The RESTORE Act requires Treasury to consult with the Interior
          and Commerce Departments when establishing procedures
          governing the expenditure of amounts from the Trust Fund. On
          behalf of Treasury, BFS is responsible for the accounting and
          investment operations of all trust funds held by Treasury. BFS
          established the Trust Fund and received the first settlement deposit
          of approximately $323 million from the Transocean defendants on
          March 21, 2013. Although this money was deposited into the
          Trust Fund and invested, BFS officials told us that Treasury’s
          ability to disburse funds for projects and programs depends on
          several factors, including finalizing Treasury’s RESTORE Act
          regulations. These other factors include steps that the Council and
          the Gulf Coast States must complete under the RESTORE Act. At
          the time of our audit, the delay in finalizing the regulations affected
          Treasury’s ability to disburse funds from the Trust Fund to support
          activities under the Direct Component, Centers of Excellence
          Research Grants Program Component, and Gulf Coast Ecosystem


          Treasury Needs to Establish Procedures to Expend and Invest      Page 4
          Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
                       Restoration Science Program Component.8 According to a Treasury
                       official, at the time, Treasury planned to finalize those regulations
                       in September or October 2013. 9

                       Treasury also developed a draft Gulf Coast Restoration Trust Fund
                       Concept of Operations related to the investment function;
                       however, it is based on several key assumptions that will not be
                       resolved until the Treasury regulations are issued/finalized. Once
                       the regulations are issued, Treasury will need to finalize its internal
                       procedures for the Trust Fund.

                       Investing Deposits Received by the Trust Fund

                       At the time of our audit, Treasury was investing the amounts held
                       in the Trust Fund in overnight securities rather than longer-term
                       investments that typically yield a higher rate of return.10 BFS
                       officials informed us that until an investment strategy, which
                       considers expected outlays, is final, they will continue to invest in
                       overnight securities. According to a BFS official, Treasury plans to
                       administer the Trust Fund as a Treasury Program Managed
                       Investment Fund.11 In this regard, BFS will need to work with the
                       administrators for the RESTORE Act Components to obtain cash


8
  Among other things, funds under the Council-selected Restoration Component and the Spill Impact
Component cannot be disbursed until the Council issues the Comprehensive Plan, adopts a prioritized
list of projects, and issues regulations for the allocation of funds under the Spill Impact Component. The
Council is responsible for developing a Comprehensive Plan to restore and protect the natural resources,
ecosystems, fisheries, marine and wildlife habitats, beaches, and coastal wetlands of the Gulf Coast
region. The draft Comprehensive Plan was published in the Federal Register for a 30 day public
comment period on May 23, 2013. The Council later extended the comment period to July 8, 2013,
and approved the plan on August 28, 2013.
9
  As noted previously, on September 6, 2013, Treasury published the draft procedures in the Federal
Register, in the form of regulations.
10
   Since March 21, 2013, the average rate of return for overnight securities is 0.035 percent. On that
same day, the rate of return was 0.005 percent for 4-week Treasury bills; 0.016 percent for 13-week
Treasury bills; 0.053 percent for 26-week Treasury bills; and 0.122 percent for 50-week Treasury bills.
11
   Treasury manages three types of Trust Funds:
   • Treasury-managed Investment Funds are larger funds that receive monies collected by the
       Treasury through employment or excise taxes and transferred to the funds, based on estimates.
   • Agency-managed Investment Funds are funds for which Treasury acts as an investment agent,
       executing the investment and redemption instructions given by the program agency for the fund.
   • Treasury Program Managed Investment Funds are funds for which Treasury is designated the
       program agency; Treasury has a higher degree of programmatic and investment responsibilities for
       these funds.

                       Treasury Needs to Establish Procedures to Expend and Invest                  Page 5
                       Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
           flow projections and related timetables for required funds, so that
           BFS can invest the funds accordingly.

           Under the RESTORE Act, amounts in the Trust Fund are to be
           invested according to 31 U.S.C. §9702, which states that funds
           shall be invested in Government obligations and earn at least a 5
           percent interest rate. While we recognize that investments at
           5 percent are not available under current market conditions, this
           may not always be the case. As appropriate, Treasury’s proposed
           regulations should at a minimum acknowledge 31 U.S.C. §9702
           and inform the public about its approach for selecting available
           investments.

Recommendations
           We recommend that the Fiscal Assistant Secretary:

           1. Take necessary action to establish regulations for the Gulf
              Coast Restoration Trust Fund, and to finalize internal Treasury
              procedures for the Trust Fund.

               Management Response

               Treasury is in process of publishing procedures that will address
               RESTORE Act requirements. Treasury is also preparing
               additional materials, such as instructions, to accompany the
               regulations.

               OIG Comment

               Management’s actions taken and planned meet the intent of our
               recommendation.

           2. Ensure that Treasury’s proposed regulations address how
              Treasury intends to meet the requirements of 31 U.S.C. §9702
              for investment of the Trust Fund.




           Treasury Needs to Establish Procedures to Expend and Invest     Page 6
           Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
    Management Response

    Treasury stated that the above referenced procedures will
    address the RESTORE Act’s requirements for investing the Trust
    Fund, among many other issues.

    OIG Comment

    Management’s actions taken and planned satisfy the intent of
    our recommendation. It should be noted the proposed
    regulations state that investments will bear interest at rates
    described in 31 U.S.C. §9702, unless the Secretary of the
    Treasury determines that such rates are unavailable for
    obligations with suitable maturities. In that event, the Secretary
    will consider current market yields on comparable obligations.

3. Ensure that BFS, working with the administrators of each Trust
   Fund Component, establishes an investment strategy that takes
   into account projected outlays.

    Management Response

    Treasury recognizes the need for an investment strategy. After
    consulting with the Council and NOAA concerning their
    investment needs, Treasury began implementing an investment
    strategy at the end of July that includes Treasury securities
    with medium and short-term maturities. Treasury will review
    this investment strategy with the Council and NOAA on a
    regular basis.

    OIG Comment

    Management’s actions and commitment to review the
    investment strategy on a regular basis satisfy the intent of our
    recommendation.




Treasury Needs to Establish Procedures to Expend and Invest      Page 7
Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
                                  ******

We appreciate the courtesies and cooperation extended by your
staff as we inquired about these matters. Major contributors to this
report are listed in appendix 2. A distribution list for this report is
provided as appendix 3. If you have any questions, you may
contact me at (202) 927-5400 or Deborah Harker, Audit Director,
at (202) 927-5762.


/s/
Marla A. Freedman
Assistant Inspector General for Audit




Treasury Needs to Establish Procedures to Expend and Invest      Page 8
Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
                   Appendix 1
                   Management Response




Auditor’s Note: Treasury published the procedures referred to in the response, in the
form of proposed regulations, in the Federal Register on September 6, 2013
(78 FR 54801).



                   Treasury Needs to Establish Procedures to Expend and Invest    Page 9
                   Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
Appendix 2
Major Contributors to This Report




Deborah L. Harker, Audit Director
Eileen J. Kao, Audit Manager
Marco T. Uribe, Auditor-in-Charge
Eleanor P. Kang, Program Analyst
John B. Gauthier, Referencer




Treasury Needs to Establish Procedures to Expend and Invest   Page 10
Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
Appendix 3
Report Distribution




 Department of the Treasury

    Under Secretary for Domestic Finance
    Fiscal Assistant Secretary
    Deputy Assistant Secretary, Fiscal Operations and Policy
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
           Group

 Office of Management and Budget

    OIG Budget Examiner




Treasury Needs to Establish Procedures to Expend and Invest    Page 11
Gulf Coast Restoration Trust Fund Monies (OIG-13-052)
